HHS/OIG, Audit - "Results of Audit Work Performed at Arkansas Blue Cross and Blue Shield as part of the Office of Inspector General's Nationwide Determination of the Fiscal Year 2001 Medicare Error Rate," (A-06-02-00032)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Audit Work Performed at Arkansas Blue Cross and Blue Shield
as Part of the Office of Inspector General's Nationwide Determination of the
Fiscal Year 2001 Medicare Error Rate," (A-06-02-00032)
November 20, 2002
Complete Text of Report is available in PDF format
(907 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit provides the results of our audit work performed at Arkansas Blue
Cross and Blue Shield (Arkansas BCBS) as part of the Office of Inspector General's
(OIG) nationwide determination of the Fiscal Year (FY) 2001 Medicare error rate.
Arkansas BCBS was selected by the OIG through statistical sampling as one of
the Centers for Medicare and Medicaid Services (CMS) contractors to be audited
as part of the FY 2001 nationwide audit.  The audit period covered the
third quarter of FY 2001 (April 1, 2001 through June 30, 2001).
Our audit work disclosed three areas where Arkansas BCBS could improve its
operations.  These areas centered on the reconciliation requirements of
both the CMS 1521 and CMS 1522.  In addition, the medical review of the
788 claims selected in our statistical sample identified 65 claims that did
not comply with Medicare laws and regulations, resulting in net questioned costs
totaling $9,654.91 that needs to be refunded to Medicare.  We recommended
that Arkansas BCBS perform a monthly reconciliation of the funds expended as
reported on the CMS 1522 to the Medicare paid claims history file; and take
the steps needed to ensure that adjustments are made to those claims in our
sample that contained errors and that the net adjustment amount of $9,654.91
is refunded to Medicare.  Arkansas BCBS officials agreed with our recommendations.